<html>
<title> - FTO PASSPORT REVOCATION ACT OF 2017; AND COUNTERTERRORISM SCREENING AND ASSISTANCE ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  FTO PASSPORT REVOCATION ACT OF 2017;
                   AND COUNTERTERRORISM SCREENING AND
                         ASSISTANCE ACT OF 2017

=======================================================================

                                 MARKUP

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                         H.R. 425 and H.R. 1196

                               __________

                             JULY 19, 2017

                               __________

                           Serial No. 115-44

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
26-311PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d2a3d220d2e383e392528213d632e222063">[email&#160;protected]</a>                                  
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 425, To authorize the revocation or denial of passports to 
  individuals affiliated with foreign terrorist organizations, 
  and for other purposes.........................................     2
  Amendment in the nature of a substitute to H.R. 425 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of Texas, and chairman, Subcommittee on Terrorism, 
    Nonproliferation, and Trade..................................     5
H.R. 1196, To require a plan to combat international travel by 
  terrorists and foreign fighters, accelerate the transfer of 
  certain border security systems to foreign partner governments, 
  establish minimum international border security standards, 
  authorize the suspension of foreign assistance to countries not 
  making significant efforts to comply with such minimum 
  standards, and for other purposes..............................     8
  Amendment in the nature of a substitute to H.R. 1196 offered by 
    the Honorable Lee M. Zeldin, a Representative in Congress 
    from the State of New York...................................    25

                                APPENDIX

Markup notice....................................................    46
Markup minutes...................................................    47
Markup summary...................................................    48

 
FTO PASSPORT REVOCATION ACT OF 2017; AND COUNTERTERRORISM SCREENING AND 
                         ASSISTANCE ACT OF 2017

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Now that we 
have eight members, we can proceed on the two markups.
    After the conclusion of this brief business meeting, we 
will proceed immediately to our scheduled hearing on Saudi 
Arabia's Troubling Educational Curriculum.
    Pursuant to notice, we will need to consider two bipartisan 
measures this afternoon. As members were notified yesterday, it 
is the intention of the Chair to consider today's business en 
bloc so that we can proceed promptly to our hearing. So, 
without objection, we will proceed en bloc.
    All members may have 5 days to insert remarks into the 
record and, without objection, the following members' measures 
and amendments will be considered: H.R. 425, the FTO Passport 
Revocation Act of 2017; the Poe Amendment in the Nature of a 
Substitute to H.R. 425; H.R. 1196, the Counterterrorism 
Screening and Assistance Act of 2017; and the Zeldin Amendment 
in the Nature of a Substitute to H.R. 1196.
    [The information referred to follows:]<greek-l>H.R. 
425 deg.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Poe. Before turning to our ranking member, I now 
recognize myself to speak on today's two bills. The two 
bipartisan bills today before us, H.R. 425 and 1196, address 
dangerous issues: Terrorists and foreign fighter travel.
    H.R. 425, the FTO Passport Revocation Act that Ranking 
Member Keating and myself introduced will authorize the 
Secretary of State to revoke passports of those Americans who 
have aided and abetted terrorist organizations. This will help 
prevent American citizens with evil designs to exploit the 
privilege of a U.S. passport to support the murderous cause of 
terrorism.
    Mr. Zeldin's important bill, H.R. 1196, the 
Counterterrorism Screening and Assistance Act of 2017 will 
increase U.S. engagement with partner nations and increase the 
capacity to screen and prevent foreign fighter travel. We have 
all seen the devastating results of lax security and 
screenings, including most recently when the perpetrator of the 
Manchester bombing returned from Libya, an ISIS hotspot, days 
before the attack.
    These two measures will go a long way to securing our 
homeland and protecting our allies around the world. I 
encourage all members to vote in favor of these two important 
pieces of legislation.
    I will now yield to the gentleman from Massachusetts, the 
ranking member, Mr. Keating.
    Mr. Keating. Thank you, Chairman Poe and thank you for 
bringing forward those two important pieces of legislation.
    H.R. 425, the FTO Passport Revocation Act of which I am 
proud to join you as a cosponsor, is straightforward. This bill 
would authorize the Secretary of State to refuse to issue a 
passport to or revoke the passport of an individual who is 
affiliated with aiding, assisting, or abetting an organization 
the Secretary has designated as a foreign terrorist 
organization with certain exceptions, including emergency 
circumstances, humanitarian reasons, and law enforcement 
purposes. I appreciate your leadership on this issue and your 
attention to streamlining the changes between this bill and the 
House-passed version from last Congress.
    H.R. 1196, the Counterterrorism Screening and Assistance 
Act introduced by our colleague, Mr. Zeldin, is a product of 
the House Homeland Security Committee's Foreign Fighters Task 
Force. As many of us know, the task force completed and 
published a review of foreign fighter travel and threats in 
2016. This bill, a version of which passed the House under 
suspension last year, seeks to improve U.S. programs to 
strengthen foreign governments' efforts to disrupt terrorist 
and foreign fighter travel. I am particularly appreciative of 
your willingness to continue to work with me and members of the 
subcommittee to further improve this legislation.
    It is important that we do not penalize our foreign 
partners for their efforts, promote peace at home, and that we 
ensure any foreign assistance authorized to be suspended under 
this bill is not detrimental to our security concerns.
    I look forward to working with you to this end and thank 
you for your commitment. I yield back.
    Mr. Poe. Do any other members wish to seek recognition? The 
Chair recognizes the gentleman from New York, Mr. Zeldin.
    Mr. Zeldin. Well, thank you, Mr. Chairman. I appreciate the 
subcommittee's consideration of my legislation today.
    Sadly, we have seen terrorist attacks in Europe over the 
last 3 years, which have killed hundreds of people and were 
largely carried about by European nationals. Some of the 
perpetrators of these attacks traveled to train and fight in 
Syria and returned to Europe through Greece and Turkey. 
Although some of the attackers were already known to local 
authorities, they were able to move across borders without 
detection and, in some cases, used fraudulent passports.
    Given the high number of foreign fighters returning from 
ISIS strongholds in Syria, Iraq, and elsewhere, there is a 
recognized need for improved border security information-
sharing between governments.
    The lack of a United States governmentwide risk-based 
approach increases the odds that systematic security gaps 
abroad may persist and that United States response efforts will 
not maximized in order to close these gaps. Failure to 
effectively coordinate capacity-building activities also 
results in greater risk of overlap, waste, and unnecessary 
duplication between the United States and international 
programs.
    To help solve this program problem, I introduced H.R. 1196, 
the Counterterrorism Screening and Assistance Act of 2017. This 
effort is very similar to H.R. 4314 from the 114th Congress, 
which passed the house by a 371 to 2 vote on March 21, 2016.
    H.R. 1196 mandates a report card which will assess foreign 
governments' respective border security efforts. My bill would 
also require the President to submit a plan to Congress, which 
would catalog ongoing initiatives and programs with the goal of 
enhancing the partner and country capacities of interdicting 
terrorist activities and foreign fighter travel. The plan will 
also identify areas for improvement and steps that will be 
taken to address any concerns.
    H.R. 1196 would also require the Department of State and 
Department of Homeland Security to accelerate the delivery of 
certain border security systems prioritizing delivery to 
countries of greatest concern and risk for foreign fighter or 
terrorist travel. When possible, the U.S. will attempt to 
collect reimbursement for transferred equipment and all 
equipment transfers will comply with existing regulations 
related to the export of sensitive technologies.
    The Department of State and Department of Homeland Security 
will also be required to submit an annual report to Congress 
detailing how countries are meeting the minimum of border 
security standards established within the Act. The report will 
assess partner country efforts over the previous 12 months and 
identify areas for improvement.
    Further, the bill would put in place a monitoring system 
that would screen for infectious diseases to contain and 
prevent any potential outbreaks, which will help quarantine 
viruses by authorizing the Secretary of Homeland Security to 
provide the necessary equipment and supplies to mitigate the 
risk or threat of infectious diseases such as Zika.
    Finally, H.R. 1196 would allow the Secretary of State, in 
consultation with the Secretary of Homeland Security, to 
suspend all nonhumanitarian, nontrade-related foreign 
assistance to any country deemed not to meet the minimum border 
security standards set forth in the bill.
    Senators Marco Rubio and Chris Coons have introduced a 
companion bill in the Senate, which is Senate Bill 942.
    I look forward to working with my colleagues in the House 
and our friends in the Senate to pass and send this bill to the 
President.
    Again, I would like to thank you, Chairman, and the ranking 
member for your hard work and efforts in considering this 
legislation today and I yield back.
    Mr. Poe. I thank the gentleman from New York.
    Does any other member wish to be recognized?
    The Chair recognizes the gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson. Thank you, Chairman Judge Ted Poe, for your 
leadership. I am grateful to support the bills in today's 
markup. I always appreciate being in the presence of Chairman 
Frank Wolf of the Commonwealth of Virginia.
    Recently, we have seen a rise in the terrorist threats 
coming from returned foreign fighters and homegrown terrorists, 
as the Islamic State uses their extensive digital network to 
promote violent extreme messaging in an effort to recruit in 
Western nations, including in the United States.
    I was grateful to introduce an amendment to this year's 
National Defense Authorization Act last week that would counter 
the propaganda and fundraising efforts that are used to recruit 
Americans to join terrorist groups as foreign fighters. We 
should also have penalties for American citizens who join the 
fight against freedom, democracy, and human dignity, including 
the revocation or denial of a United States passport. We also 
need to establish minimum border security standards to combat 
international travel by foreign terrorist fighters. The bills 
before the subcommittee today do just that by working in a 
comprehensive manner to address both the causes of foreign 
terrorist fighters and their movements so that we can protect 
American families.
    Thank you, Mr. Chairman. I yield back.
    Mr. Poe. Any other members wish to be heard? Seeing none, 
the question occurs on the items mentioned en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it. The measures 
considered en bloc are agreed to.
    Without objection, the measures considered en bloc will be 
ordered favorably to the full committee, as amended. The staff, 
as decided, are directed to make technical and conforming 
changes.
    This concludes our markup. The subcommittee stands 
adjourned on the markup.
    [Whereupon, at 2:45 p.m., the subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
